                                                         NATIONAL SCIENCE FOUNDATlON
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

I((  Case Number: A08100052
                                                                                    11           Page 1 of 1



                   We identified a workshop award1 as part of a proactive review for the use of participant
          support funds. After receiving documentation from the institution2 regarding the award, we
          identified another award3and supplement4related to the first which required review. We identified a
          small fraction of costs improperly charged to participant support as well as several questionable costs
          inconsistent with each of the requests for funds. NSF funding represented only a small fraction of
          the total funding used to put on the workshop. The remaining hnding had no restrictions on use.
          There were sufficient charges for the workshop consistent with the proposed purpose of the awards
          and supplement, such that this appeared to be error of charging items to the incorrect account. The
          institution has been advised to be more mindful of the participant support definition and restrictions.

                     Accordingly, this case is closed.




I'
 NSF 01G Form 2 (1 1/02)
